                                                               O FFICE OF A UDIT S ERVICES , R EGION I
                                                                             JFK F EDERAL B UILDING
                                                              15 N EW S UDBURY S TREET, R OOM 2425
                                                                                B OSTON , MA 02203
March 26, 2012

Report Number: A-01-11-00010

JudyAnn Bigby, MD
Secretary
Executive Office of Health and Human Services
One Ashburton Place, 11th Floor
Boston, MA 02108

Dear Dr. Bigby:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Massachusetts Generally Complied With Federal and State
Requirements for Medicaid Payments to Wingate Healthcare. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Curtis Roy, Audit Manager, at (617) 565-9281 or through email at
Curtis.Roy@oig.hhs.gov. Please refer to report number A-01-11-00010 in all correspondence.

                                             Sincerely,


                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Dr. JudyAnn Bigby


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
ROchiORA@cms.hhs.gov
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 MASSACHUSETTS GENERALLY
  COMPLIED WITH FEDERAL
AND STATE REQUIREMENTS FOR
   MEDICAID PAYMENTS TO
   WINGATE HEALTHCARE




                       Daniel R. Levinson
                        Inspector General

                          March 2012
                         A-01-11-00010
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies. The State agency
reimburses nursing homes based on an established per diem rate for services provided to
Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must use certain
additional resources that a beneficiary has, including Social Security payments, to reduce its
Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution during the financial eligibility process and enters this amount into its
computer system. The beneficiary’s contribution is remitted to the nursing home each month.

When the State agency reimburses the nursing home and does not reduce the Medicaid per diem
payment to the nursing home by the amount of the beneficiary’s contribution, the nursing home
could receive overpayments. Pursuant to Medicaid requirements, the nursing home must return
any overpayments to the State Medicaid program, which in turn is required to refund the Federal
share to the Centers for Medicare & Medicaid Services (CMS) on its Form CMS-64, Quarterly
Statement of Expenditures for the Medical Assistance Program.

Wingate Healthcare (Wingate) is a Massachusetts provider with 16 Medicare and Medicaid
certified nursing homes. This report covers payments to 14 facilities located in Andover,
Brighton, East Longmeadow, Hampden, Haverhill, Kingston, Lowell, Middleboro, Needham,
Reading, South Hadley, Sudbury, West Springfield, and Wilbraham, Massachusetts. Payments
by the remaining two facilities located in Springfield and Worcester, Massachusetts, will be
reviewed by the State agency.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid payments to Wingate
in accordance with Federal and State requirements from July 2006 through December 2010.

SUMMARY OF FINDING

The State agency generally made Medicaid payments in accordance with Federal and State
requirements to Wingate. However, the State agency did not always adjust its Medicaid per
diem payments to Wingate by the amount of beneficiaries’ cost-of-care contributions from
resources, such as Social Security and pensions. As a result, the State agency’s Federal claim
was overstated by a total of $111,938 ($62,400 Federal share). We attributed the incorrect
Medicaid payments to clerical and billing errors.




                                                  i
RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $111,938 from Wingate and refund the Federal share of
       $62,400 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

WINGATE HEALTHCARE COMMENTS

In written comments on our draft report, Wingate agreed with our finding. Wingate’s comments
are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In written comments on our draft report, the State Agency agreed with our finding. The State
Agency’s comments are included in their entirety as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................1
               Objective ..................................................................................................1
               Scope ........................................................................................................1
               Methodology ............................................................................................2

FINDING AND RECOMMENDATIONS ...................................................................2

          FEDERAL AND STATE MEDICAID REQUIREMENTS................................2

          UNADJUSTED NURSING HOME PAYMENTS .............................................3

          AMOUNT OWED TO THE FEDERAL GOVERNMENT ................................3

          CAUSE OF UNREPORTED OVERPAYMENTS .............................................3

          RECOMMENDATIONS .....................................................................................3

          WINGATE HEALTHCARE COMMENTS……………………………………4

          STATE AGENCY COMMENTS……………………………………………….4

APPENDIXES

          A: MEDICAID OVERPAYMENTS TO WINGATE HEALTHCARE BY STATE
             FISCAL YEAR

          B: WINGATE HEALTHCARE COMMENTS

          C: STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. The
Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies.

The State agency reimburses nursing homes based on an established per diem rate for services
provided to Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must
use certain additional resources that a beneficiary has, including Social Security payments, to
reduce its Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution to the cost of care during the financial eligibility process and enters
this amount into its computer system. The beneficiary’s cost-of-care contribution is remitted to
the nursing home each month.

When the State agency does not reduce the Medicaid per diem payment to the nursing home by
the amount of the beneficiary’s contribution, the nursing home could receive overpayments.
Pursuant to Medicaid requirements, the nursing home must return the overpayments to the State
Medicaid program, which in turn is required to refund the Federal share to CMS on its Form
CMS-64, Quarterly Statement of Expenditures for the Medical Assistance Program.

Wingate Healthcare (Wingate) is a Massachusetts provider with 16 Medicare and Medicaid
certified nursing homes. This report covers payments to 14 facilities located in Andover,
Brighton, East Longmeadow, Hampden, Haverhill, Kingston, Lowell, Middleboro, Needham,
Reading, South Hadley, Sudbury, West Springfield, and Wilbraham, Massachusetts. Payments
by the remaining two facilities located in Springfield and Worcester, Massachusetts, will be
reviewed by the State agency.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency made Medicaid payments to Wingate
in accordance with Federal and State requirements from July 2006 through December 2010.

Scope

For the period from July 2006 through December 2010, we reviewed Medicaid accounts that
were at risk for having overpayments. We limited our review of internal controls to obtaining an



                                                1
understanding of Wingate’s procedures for reviewing accounts and reporting overpayments to
the Medicaid program.

We performed fieldwork from April through November 2011 at Wingate in Needham and
Middleborough, Massachusetts; the State agency in Boston, Massachusetts; and the CMS
Regional Office in Boston, Massachusetts.

Methodology

To accomplish our objective, we:

   •   reviewed State and Federal regulations pertaining to overpayments,

   •   worked with Wingate officials to identify credit balances in the accounting records that
       were potentially overpayments,

   •   reviewed Medicaid remittance advices and patient accounts to determine whether
       overpayments had occurred,

   •   determined the cause of the overpayments, and

   •   coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

The State agency generally made Medicaid payments in accordance with Federal and State
requirements to Wingate. However, the State agency did not always adjust its Medicaid per
diem payments to Wingate by the amount of beneficiaries’ cost-of-care contributions from
resources, such as Social Security and pensions. As a result, the State agency’s Federal claim
was overstated by a total of $111,938 ($62,400 Federal share). We attributed the incorrect
Medicaid payments to clerical and billing errors.

FEDERAL AND STATE MEDICAID REQUIREMENTS

Pursuant to 42 CFR § 435, the State agency must reduce its payment to an institution for services
provided to a Medicaid-eligible individual by the amount that remains after adjusting the
individual’s total income for a personal needs allowance and other considerations that the
regulation specifies. MassHealth regulations at 450.316 note that all resources available to a
member, including but not limited to health and casualty insurance, must be coordinated and
applied to the cost of medical services provided by MassHealth.

                                                2
UNADJUSTED NURSING HOME PAYMENTS

The State made 194 overpayments to 13 out of the 14 Wingate nursing homes reviewed on
behalf of an average of 4 Medicaid beneficiaries each month from July 2006 through December
2010 (see Appendix A). Specifically, the State agency did not adjust its Medicaid payments to
Wingate by the amount of beneficiaries’ cost-of-care contributions from resources, such as
Social Security and pensions.

                           An Example of Medicaid Overpayment

   Mrs. D was a patient at Wingate nursing home during August 2008. Based on her other
   resources, the State agency calculated Mrs. D’s cost-of-care contribution to be $800 a
   month. The State agency determined that the nursing home was entitled to a monthly
   payment of $5,600. Because of Mrs. D’s $800 cost-of-care contribution, the State agency
   was responsible for only $4,800 of the $5,600 nursing home costs. However, the nursing
   home received a total of $6,400 ($5,600 from the State agency and $800 from Mrs. D).
   This error occurred because the State agency’s computer system did not adjust the payment
   amount by Mrs. D’s cost-of-care contribution. The nursing home, therefore, received an
   overpayment of $800 ($6,400 minus $5,600) for Mrs. D’s care for the month of August.


AMOUNT OWED TO THE FEDERAL GOVERNMENT

As a result of the overpayments, the State agency’s Federal claim for Medicaid payments made
to Wingate for the period from July 2006 through December 2010 was overstated by a total of
$111,938 ($62,400 Federal share).

CAUSE OF UNREPORTED OVERPAYMENTS

We attributed the 194 incorrectly reimbursed Medicaid payments to clerical and billing errors.
State agency officials informed us that they have recently implemented a new computer system
that will reduce future clerical and billing errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $111,938 from Wingate and refund the Federal share of
       $62,400 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.




                                               3
WINGATE HEALTHCARE COMMENTS

In written comments on our draft report, Wingate agreed with our finding. Wingate’s comments
are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In written comments on our draft report, the State Agency agreed with our finding. The State
Agency’s comments are included in their entirety as Appendix C.




                                               4
APPENDIXES
                         APPENDIX A: MEDICAID OVERPAYMENTS TO
                        WINGATE HEALTHCARE BY STATE FISCAL YEAR


                             Average Number of
             Fiscal           Beneficiaries with                 Number of         Total
             Year          Overpayments per Month               Overpayments   Overpayments

               2007                      2                              22       $ 10,081

               2008                      5                               54        25,506

               2009                      4                               46        38,599

               2010                      4                               46        21,530

               2011 1                    4                              26         16,222

            TOTAL                        42                             194        $111,938




1
    State Fiscal Year period July 1, 2010, through December 31, 2010.
2
    Result of averaging round numbers.
                                   APPENDIX B: WINGATE HEALTHCARE COMMENTS 

                               December 27,2011

                               Michael J Armstrong 

                               Regional inspector General for Audit Services 

                               Department of Health & Human Services 

 RVtti'NGATE
   HEALTHCARE
              
                Office of Inspector General 

                               Office of Audit Services 

      1 Charles River Place
                               Region I 

      63 Kendnck Street        John F. Kennedy Federal Building 

      Needham, MA 02494        Boston, MA 02203 

      781.707.9500    TEL
      781.707. 9599   FAX
                               RE: Report Number A-Ol-ll-00010


                               Dear Mr. Armstrong,


                              I have received and reviewed the draft report entitled Review of
                              Medicaid Payments to Wingate Healthcare for The period From
                              July 2006 Through December 2010. I am in agteement with the
                              total overpayment of$111,938.00 for our 14 facilities noted in the
                              report. However, $29,171.29 of the said overpayments has already
                              been returned earlier this year (Please see attached).

                              During the audit there were 4 main classifications of issues which
                              resulted in the overpayments:

                                  1) 	 Patient Paid Amounts not deducted by the State from
                                       coinsurance payments made to Wingate during Medicare A
                                       coinsurance stays
                                  2) 	 Adjustment billings not processed by West River Hospice
                                       for Hospice dates of service 

                                  3) Patient Paid Amount retro changes 

                                  4) MMQ changes 


                              As discussed with your auditors there were State processing issues
                              that caused these overpayments and additional State barriers we
                              encountered in attempting to return them.

                              I appreciate your assistance in helping us to return the remaining
                              $82,766.71 overpayments to the State. I feel that with the State
                              implementation of the new MMIS system in May of 2009 that
                              many of the processing issues have been resolved.

                              If you have any further questions please feel free to contact me at
                              781-707-9005.




                              a:'h!·!~                                           

                                Calr:t.
                              Brian E.
                              Chief Financial Officer
www.wingatehealthcare.com
                              Wingate HeaIthcare
                                                                                                 Page 1 of 2
                            APPENDIX C: STATE AGENCY COMMENTS 



                           The Commonwealth of Massachusetts                             MassHealth
                       Executive Office of Health and Human Services
                                      Office of Medicaid
                                    One Ashburton Place
                                     Boston, MA 02108                                    JUDY ANN BIGBY, M .D .
 DEVA~~. PATRICK
     Governor                                                                                  Secretary

                                                                                         JULlAN ,I . HANRfS , M .D .
TIMOTHY P. MURRAY
 Lieutenant Governor                                                                        Medicaid Director




       March 1,2012

      Michael J. Armstrong
      Regional Inspector General, Audit Services
      HHS/OIG/OAS
      Region I
      JFK Federal Building
      Boston, MA 02203

      RE: Audit Report No: A-01-11-00010

      Dear Mr. Armstrong:

      Thank you for the opportunity to review and comment on Draft Audit Report No : A-01­
      11-00010, Review of Medicaid Payments at Wingate Healthcare Inc. for the period
      July 2006 through December 2010.

      Our responses to the report's specific recommendations are as follows:
      Recommendation:

      1) 	 Collect overpayments totaling $111 ,938 from Wingate Healthcare Inc. and refund
           $62,400, the Federal share of these payments , to CMS on the next quarterly CMS-64 .

      Response: We are in agreement with this finding and will follow the procedures
      described in state Medicaid regulations at 130 CMR 450 .237 to collect the
      overpayments from the provider. Under 130 CMR 450.237, the provider has a due
      process right to contest the overpayment, including the right to request an adjudicatory
      hearing and judicial review.

      OIG did not validate the return of $29 ,179.29 as stated in Wingate HealthCare's
      response to the OIG. However, Wingate did provide hard copy evidence to the OIG of
      aCtions they took to refund this amount to the State. OIG turned over this evidence to
      the state at the exit conference . MassHealth will take the necessary actions to verify
      that this amount was returned and will initiate a recovery project for the remaining
      $80,769.
                                                                                   Page 2 of 2



MassHealth will need the OIGs working papers identifying the specific claims in order
to undertake collection of the overpayments and to defend any challenge to colleCtion
by lhe provider. If the provider does not contest the overpayment collection or does
not prevail in contesting this overpayment, MassHealth will work with EOHHS' Federal
Revenue Unit to return the Federal share on the appropriate eMS-54 .

Recommendation:

1) Continue agency efforts to ensure that Medicaid overpayments to nursing homes
   are identified, collected and refunded .

Response: MassHealth is in agreement with this recommendation and will ensure
that periodic reviews and audits are conducted to identify, collect and refund
overpayments.

Thank you, again, for the opportunity to respond to the draft report.

Sincerely


                     ..A., M.Sc.
